                               WHITE PAPER



100 Years of Parcel Post


December 20, 2013




                    Parcel Post wagon in Benton Harbor, Michigan
                    Source: Smithsonian Institution Postal Museum



                      Report Number: RARC-WP-14-004
                                                               EXECUTIVE SUMMARY

                               100 Years of Parcel Post
Parcel Post was introduced in America                                Highlights
100 years ago to correct abusive practices
in the parcel delivery market and                     When Parcel Post came to America in
transformed the national marketplace.                 1913, it was a deliberate government
Today, the way goods are bought and sold              effort to inject competition into the
is changing again because of the Internet.            parcel delivery market.
The rapid growth of e-commerce is bringing
                                                      Parcel Post was an immediate success
expansion and disruption to the parcel
                                                      and transformed the commercial
delivery market. As this transformation               marketplace, particularly in rural areas.
continues, questions about the Postal
Service’s role as both a competitor in this           Today, the Postal Service has a smaller
marketplace and part of the government                role in the parcel market, with an
may logically arise. Should the Postal                emphasis on individual and small-
Service primarily provide last mile delivery          business shippers and last mile
for other carriers or should it complete              delivery. Yet, the Postal Service
vigorously with them on end-to-end service?           provides additional competition in a
                                                      market that would otherwise be a
What is the Postal Service’s obligation to
                                                      duopoly, and is the only provider of
customers in hard-to-serve areas? The                 service without surcharges for out-of-
story of Parcel Post’s introduction offers            the-way locations.
some useful insights to answer these
questions.                                            As the market for parcel delivery
                                                      changes with the growth of
For the first 14 decades of the country’s             e-commerce, questions may arise about
existence, the Post Office was not in the             the Postal Service’s proper role in a
package delivery business. Four express               competitive market. The reasons behind
delivery companies, closely tied to the               Parcel Post’s initial introduction provide
railroads, came to dominate the market for            some insights.
carrying packages long distances. The
express companies avoided competing with each other, and eventually came to have
interlocking ownership. They kept prices high and confusing, effectively forming a cartel
that undermined efficient market forces. An investigation by the Interstate Commerce
Commission revealed a pattern of abuse that the press attributed to collusion.
The successful introduction of rural free mail delivery in 1902 suggested that mail wagons
could deliver parcels as well as letters, newspapers, and advertising catalogs. The posts in
other countries all carried parcels, but the law did not permit it in the United States, and the


U.S. Postal Service Office of Inspector General                                      December 20, 2013
                                                  i
RARC-WP-14-004                                                               100 Years of Parcel Post



express companies were powerful enough to prevent Parcel Post legislation even from
getting a hearing. By 1910, however, public opinion finally forced a nationwide debate on
proposals for a “parcels post.” The principal argument was that competition from a public
entity was the only way to keep the express companies in check. With the express
companies largely discredited in the public’s mind, all political parties supported Parcel
Post legislation in the election of 1912, and it became effective on January 1, 1913.
Parcel Post was an immediate hit with the public and businesses; more than 4 million
packages were shipped on the first day. Parcel Post transformed the commercial
marketplace, as companies like Sears, Roebuck and Montgomery Ward blanketed the
country with mass produced goods that raised the national standard of living. The express
companies failed to adapt and soon withdrew from rural areas altogether. A hundred years
later, Parcel Post has evolved into a diverse set of package delivery services that are
integral to the Nation’s lifestyle and commerce, including Priority Mail, Parcel Select, which
allows mailers to enter discounted packages deep within the U.S. Postal Service’s
network, and Standard Post, Parcel Post’s direct descendant. During this period, strong,
new competitors to the Postal Service have emerged for parcel delivery, especially for
business-to-business and business-to-customer deliveries. The Postal Service has
generally focused on the parcel needs of individuals and small businesses and offering
last mile delivery to the household for high-volume package shippers and consolidators,
including its competitors.
The presence of strong competition for parcel delivery may logically raise the question
whether there still exists a need for the Postal Service to provide parcel options beyond
last-mile delivery. But it is worth remembering that Parcel Post was instituted precisely to
correct the abusive effects of a lack of market competition that existed a century ago, and
that it succeeded decisively where regulation alone had failed. Since the withdrawal of
DHL from the North American market in 2008, package delivery has been overwhelmingly
concentrated in a commercial duopoly plus the Postal Service. Moreover, as e-commerce
grows, the parcel delivery market may enter a period of reorganization and change. Efforts
to maintain competition may be needed to ensure that the market continues to be guided
by efficient market forces, so that business success and failure is based solely on merit
and market forces are not avoided through anti-competitive behavior or concentrated
market power.
In addition, the Postal Service continues to be the only provider of universal service to out-
of-the-way areas at prices without surcharges. And finally, it is worth considering that
package shipping is the most significant postal product that is growing rather than
shrinking in volume and revenues, driven primarily by Priority Mail, Parcel Select, and
First-Class parcels.
The story of Parcel Post may also have broader lessons for how the Postal Service can
use its existing infrastructure to benefit citizens and businesses. Parcel Post suceeeded in
1913 because it used the Post Office’s unique capacities to satisfy the strong demand for
package delivery and neutralize monopolistic abuse. Today, as digital technology
transforms society and as data streams seek out new relationships with traditional matter
streams, there may be new opportunities to use the Postal Service’s infrastructure to meet
the Nation’s needs while further removing friction in commercial exchanges.

U.S. Postal Service Office of Inspector General                                  December 20, 2013
                                                  ii
RARC-WP-14-004                                                                                               100 Years of Parcel Post



                                                  Table of Contents
Introduction ..................................................................................................................... 1

The Years before Parcel Post ......................................................................................... 2

The Express Industry before Parcel Post ........................................................................ 3

Post Office Delivery Service ............................................................................................ 4

RFD Opened New Possibilities ....................................................................................... 5

The Political Debate over Parcel Post ............................................................................. 6

The Political Climate Finally Changes ............................................................................. 7

Parcel Post Had an Immediate Impact ............................................................................ 9

A Profound Effect in the Longer Term ........................................................................... 10

Postal Package Services 100 Years Later .................................................................... 11

Does the Country Still Need Parcel Service by the Postal Service? ............................. 12

Lessons for the Future .................................................................................................. 14




U.S. Postal Service Office of Inspector General                                                                  December 20, 2013
                                                                 iii
RARC-WP-14-004                                                                                 100 Years of Parcel Post




                               100 Years of Parcel Post

Introduction
An enduring theme of American political discourse is where the line should be drawn
between the roles of public and private enterprise in the national economy. When the
U.S. Post Office Department inaugurated a parcel delivery service on January 1, 1913,
it marked the first deliberate government incursion into a market dominated by private
sector enterprise with the explicit purpose of providing competition as an antidote to
corporate predation. The great national debate that culminated in the decision to
authorize Parcel Post is no longer familiar to the American public, yet it is worth
remembering in an era when important changes are occurring to the way people buy
and sell goods and the proper realm of the Postal Service is once again a matter of
national concern and debate. One hundred years later, Postal Service package delivery
service still competes with powerful private companies that handle most package
deliveries, raising once again the question of whether a government service provider is
needed.

Parcel Post came to America much later than to other developed economies. Elsewhere
in the world, the common pattern was for government control of basic transportation and
communications infrastructure, but in the United States it was private companies that
successively developed the stagecoach, steamship,
railroad, telegraph, telephone, and airline industries.   Parcel Post was late to arrive
Although the government-run posts in other                on the American scene,
countries expanded their delivery service from mail       where package delivery was a
to packages as a matter of course, package delivery       private sector enterprise until
                                                          1913.
service in the United States was also a private
sector activity carried out locally through merchant
wagons and nationally through express companies that were closely aligned with the
railroads. By the time Congress first held a hearing on the proposal for Parcel Post in
1910, Montgomery Ward had been in business for 38 years and Sears, Roebuck and
Company for 23. Only a small fraction of their business — 8 percent for Montgomery
Ward — went through the mail, however, since postage was charged by the ounce at
expensive rates and no parcel could weigh more than 4 pounds. 1 That changed when
Parcel Post legislation passed in 1912, but only after a seriously conducted public
debate. While practical considerations of who would lose and who would gain were of
course present, a leading scholar of the issue observed that the debate involved
“fundamental questions about the proper sphere of state action.”2 Parcel Post was an

1
  Parcels of up to 11 pounds could be sent to other countries though because of international postal agreements.
Kielbowicz, Postal Enterprise: Post Office Innovations with Congressional Constraints, 1789-1970, prepared for the
Postal Rate Commission, May 2000, http://www.prc.gov/(S(ax5khp45zsmv1i55gi15noq5))/prc-
docs/library/refdesk/techpapers/Kielbowicz/enterprise.pdf, p. 24.
2
  Richard B. Kielbowicz, “Government Goes into Business: Parcel Post in the Nation’s Political Economy, 1880-
1915,” Studies in American Political Development, 8 No. 1 (Spring 1994): p. 150.


U.S. Postal Service Office of Inspector General                                                    December 20, 2013
                                                         1
RARC-WP-14-004                                                                                   100 Years of Parcel Post



immediate success and transformed national commerce. Today, it is part of an
integrated national delivery system that takes advantage of the Postal Service’s unique
capability to provide universal service to every address in America.

This paper presents the remarkable events around the start of the 20th century that led
to the Postal Service finally being allowed to effectively provide package delivery
service. It is a story with applications to the present time as the Postal Service strives to
enter new markets to bolster its business base and provide essential, economy
stimulating products to the Nation. The paper concludes with a summary of the key role
that Postal Service package delivery services now have for citizens and businesses and
some insights for the future.

The Years before Parcel Post
From the early beginnings of nationhood, the Post Office was conceived of and became
a national instrument of political education. 3 Congressional mail was free under the
franking privilege allowed to members of Congress. Newspapers were granted
extremely low concessionary postage rates and dominated mail volume. Letter postage
was prohibitively expensive until 1845, and even when lowered to 3 cents per half
ounce in 1851, it continued to subsidize the distribution of newspapers and magazines,
which were valued for their educational content, even as they carried more and more
advertising. Some merchants began to take advantage of the near-negligible rates
charged for printed media to distribute advertising messages that had no relationship to
informing the electorate. The Mail Classification Act of 1879 imposed some order on the
situation by defining four classes of mail: first class for letters at 3 cents a half ounce;
second class for periodical publications at 2 cents per pound, reduced in 1885 to 1 cent;
third class for transient publications, pamphlets, and advertising at 1 cent for 2 ounces
(eight times the second class rate); 4 and “as an afterthought,” a catch-all category of
fourth class for mail matter not fitting in one of the other classes, for 1 cent an ounce up
                                       to a limit of 4 pounds. 5
    The Post Office conceived of
    itself as a deliverer of        Although the Post Office did not conceive of itself as
    messages, not packages. A       a package deliverer, a patron could use the fourth
    package weighing less than      class category to mail a parcel weighing no more
    4 pounds could be mailed,       than 4 pounds. The cost was exorbitant, however:
    but the cost was prohibitive.   at 16 cents a pound, it was 16 times what
                                    newspapers were charged. A merchant seeking to
deliver a purchased item to a customer either used a local wagon, or, for longer
distances, the services of an express company. “If he attempts to use the mails,”



3
  U.S. Postal Service, Postal Service Contributions to National Infrastructure, Report No. RARC-WP-12-012, July 9,
2012, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-12-012.pdf, p. 2.
4
  Richard B. Kielbowicz, A History of Mail Classification and Its Underlying Policies and Purposes, prepared for the
Postal Rate Commission’s Mail Reclassification Proceeding, MC95-1, July 17, 1995,
http://www.prc.gov/Docs/40/40518/PRC-LR-2.pdf, pp. 45 and 47.
5
  Kielbowicz, “Government Goes into Business,” p. 156.


U.S. Postal Service Office of Inspector General                                                      December 20, 2013
                                                          2
RARC-WP-14-004                                                                               100 Years of Parcel Post



explained an article in The Cosmopolitan in 1904, “the rate of sixteen cents per pound is
prohibitive, while the fact that the bulk is limited to four pounds is almost equally so.” 6

The Express Industry before Parcel Post
The express companies got their start in the 1830s when a few enterprising travelers
found that people would willingly pay them to carry letters and packages in their
carpetbags from place to place. Men such as Henry Wells, William G. Fargo, and Alvin
Adams easily undercut high Post Office rates on well-traveled routes, and the
companies they soon founded provided cheaper and surer services on routes that grew
as the railroads spread throughout the country following the Civil War. 7 Their
competition was serious enough to persuade Congress to pass laws greatly reducing
letter postage costs and giving the Post Office an enforceable monopoly on letter mail,
but the laws did nothing to restrain their package delivery business.

Following the Civil War, the express industry evolved into an oligopoly of four dominant
companies: Adams Express, American Express, Wells Fargo, and United States
Express. 8 While nominally competitive, the four
companies found it advantageous to cooperate        Four express companies, closely
rather than compete vigorously against each         aligned with the railroads,
other, and they effectively formed a cartel. Over   dominated national parcel
a period of several decades toward the end of       transport, but they delivered only
the century, their common interests came to         to the depot and felt little need to
outweigh their differences, and in fact they        respond to the needs of
came to have interlocking ownership through         customers.
purchases of stock in one another.

Although they were closely aligned with the railroads, the express companies
maintained separate corporate structures. This was something of a sham: A Senate
report in 1910 revealed that in addition to the express companies owning millions of
dollars worth of stock in each other, railroads owned $20.7 million of stock in the
express companies, and express companies owned $34.5 million in railroad stock. 9
The relationship ensured that express shipments travelled with passenger trains that
were twice as fast as freight trains, and kept actual transportation costs low. The
express companies paid railroads an average of 0.74 cents a pound to carry their
packages, while the government itself was paying 4.06 cents a pound for carrying the
mail under the same or inferior conditions. 10 While transportation cost the express
companies less and less over time, there was no market incentive to pass savings on to
the consumer and the express companies refused to do so.

6
  John B. Walker, “Who Will Be Benefited by a Parcels Post?” The Cosmopolitan, 36 (March 1904) as reprinted in
Selected Articles on the Parcels Posts, compiled by Edith M. Phelps, Debaters’ Handbook Series, (Minneapolis: The
H.W. Wilson Company, 1913), p. 74.
7
  Wayne E. Fuller, RFD: The Changing Face of Rural America, (Bloomington, Indiana: Indiana University Press,
1964), p. 201.
8
  Greg Niemann, Big Brown: The Untold Story of UPS, (New York: Jossey-Bass, 2007), p. 44.
9
  Kielbowicz, “Government Goes into Business,” p. 159.
10
   Ibid., p. 160.


U.S. Postal Service Office of Inspector General                                                   December 20, 2013
                                                        3
RARC-WP-14-004                                                                                100 Years of Parcel Post



Much of the political history of the late 19th century revolves around the railroads and
the sometimes brazen high-handedness of the “robber barons” who ran them. The
express companies earned some of the same criticism, but they were partly shielded
from scrutiny by their separate corporate structures and by the fact that railroads were
more visible in disputes with communities, western settlers, and organized farm
interests. Most of the express companies’ direct customers were merchants shipping
goods, and their charges were collected at the front end rather than from the recipient.
When the railroads were brought under federal regulatory jurisdiction by the Interstate
Commerce Commission in 1887, the express companies were not included because of
their separate corporate structures.

The four dominant express companies divided up the country in complicated and
opaque ways that served their own interests better than those of their customers. Rates
were separately determined from each of 35,000 originating locations to every other,
with various routing differences but without a regulator or the discipline of real
competition. Critics noted that this system required over 600 million rates, and few
shippers had the knowledge to keep the charges honest or to negotiate discounts. Of
even greater concern to rural customers, moreover, was that millions of Americans lived
a long distance from a train station, and the express companies delivered their goods
only to the depot in rural areas. 11

Post Office Delivery Service
Of course, delivery to a pickup point was also true of the U.S. Mail in rural areas through
all of the 19th century. Before 1863, actual delivery of the mail to a home or business
was not part of regular postal service anywhere in the country. Postage paid only for the
delivery of letters from one Post Office to another, although residents in some urban
areas could pay extra to have their mail picked up and delivered to their home. But
beginning in 1863, Congress authorized address delivery in cities where postage
revenues could cover the costs, and within 18 months there were 65 such cities. By the
end of the century, delivery to the door was established in 796 cities. But it still did not
apply to the rural areas where two-thirds of American lived and paid the same postage
as urban customers. They had to pick up their mail in a town, often miles away over
rudimentary roads. The common pattern was that a merchant would establish a fourth-
class Post Office within the general store he owned. 12 The merchant/postmaster made
little money from selling postage and renting Post Office boxes, but benefitted from
constant traffic in the store, which charged relatively high prices for a limited inventory of
essential goods. These country merchants were a powerful local political voice, at the
center of a distinctive rural culture. 13

Merchants and fourth-class postmasters fought hard against rural free delivery (RFD),
recognizing that delivery of mail to outlying areas would cut into their business traffic.

11
   Fuller, p. 203.
12
   Fourth-class Post Offices were the smallest category by volume and revenue. Fourth-class postmasters were paid
based on commission rather than receiving a salary.
13
   Fuller, p. 89.


U.S. Postal Service Office of Inspector General                                                   December 20, 2013
                                                        4
RARC-WP-14-004                                                                                  100 Years of Parcel Post



Nevertheless, after a long period of experimentation and political perseverance by
farmers’ organizations, particularly the National Grange, rural free delivery of the mail
was finally inaugurated as a government service on July 1, 1902. 14 Only when RFD had
been achieved did serious attention begin to turn toward the question of extending
delivery service to parcels through the post.

RFD Opened New Possibilities
RFD proved immensely popular and quickly began to transform rural culture. The daily
arrival of the mail wagon brought mail, magazines, and newspapers, of course, but also
catalogs from the growing mail order industry. These were shipped very cheaply at third
class rates. Farm families were exposed to a vastly expanded inventory of goods
available at competitive prices and made even more attractive by rapid advances in the
sophistication of advertising both in newspapers and in catalog copy and illustrations.

But there was a problem in delivering the goods: Very little could be sent by mail,
because the price was high and the weight limit only 4 pounds. For most merchandise,
the choice was between railway freight and railway express. The mail order houses tried
to overcome this by trumpeting the fact that “railroad companies usually charge no more
for carrying 100 pounds than they do for 20 pounds,” and suggesting that neighboring
customers could combine orders to save on shipping. This converted customers into
                                     sales agents for more orders. 15
     When RFD introduced daily
     mail wagons to rural areas,      Still, there was no private express delivery service
     some carriers began to pick up   from the railway depot in rural areas. But the daily
     and deliver packages from        appearance of the mail carrier quickly suggested
     railway depots, suggesting an    that he could use extra space in the wagon to
     unexploited business             perform errands in town for customers and thus
     opportunity.                     save them trips. Along with orders for
                                      prescriptions, groceries, and even spirits, picking
up packages at the depot was an obvious need that the rural carrier could fill, for a
reasonable charge in cash or barter. Some carriers established a small business in
providing such services, but the government was capturing none of the revenue from
goods carried outside the mail, even those within the 4-pound weight limit. Congress
changed the law in 1904 to curtail the practice, but the experience proved to be an eye-
opener to the fact that half-empty mail wagons were an unexploited business
opportunity for the Post Office. 16




14
   The National Grange, founded in 1867 and still active, was a prominent citizens organization when the United
States was a predominantly agricultural nation.
15
   Kielbowicz, Postal Enterprise, p. 24.
16
   Fuller, pp. 206 and 208.


U.S. Postal Service Office of Inspector General                                                     December 20, 2013
                                                         5
RARC-WP-14-004                                                             100 Years of Parcel Post



The Political Debate over Parcel Post
Although postal officials had pointed out for years that the United States was unique in
the developed world for lacking a Parcel Post (except, ironically, to overseas
destinations), it was a Republican postmaster general, John Wanamaker, who first
made a serious proposal in 1891. As a department store magnate, he understood the
express package market and saw in it a way of reducing the perennial postal deficit. In
his 1891 report to the President, he wrote: “In point of fact, there are but four strong
objections to the parcel post, and they are the four great express companies.”17

This proved to be opposition enough for two decades, however. Members of Congress
could be reluctant even to introduce bills, and Congress paid no attention even then,
declining to hold a hearing until 1910. 18 As pointed out by postal historian Wayne Fuller,
more than enough power to block the measure was held by New York Senators
Thomas Platt, who was also president of the United States Express Company, and
Chauncey M. Depew, former president and (then) still director of the New York Central
Railroad, and others with similar corporate links. 19 Iron-handed Speaker of the House
Joseph Cannon assigned Parcel Post bills to hostile committees for burial.

Once RFD became established, political support for a Parcel Post began slowly to grow
outside of Congress. A reformist crusader named James T. Cowles, a journalist once
called “The Fighting Father of Parcel Post,” organized a Postal Progress League in
1902 to push the issue and soon enlisted allies in the agriculture movement — such as
the National Grange, which had worked so successfully for RFD. The national press
began to take up the issue, partly as a reform measure but also because a new source
of postal revenue held the promise of reducing pressure to raise postage rates on
newspapers and magazines, a large contributor to the Post Office deficit. Early on,
support centered on a rural rather than a general Parcel Post, because the farming
areas of the country were most affected by dependence on the express companies.

Persistent high-handed behavior by the express companies kept them under scrutiny by
the national press. When the Interstate Commerce Commission (ICC) continued to cite
lack of jurisdiction over them because they were
legally distinct from the railroads, Congress finally An investigation by the
moved to bring them under ICC jurisdiction by         Interstate Commerce
passing the Hepburn Act of 1906 with only three       Commission revealed a pattern
dissenting votes. Finally armed with authority, and   of high-handed abuse by the
with national political sentiment turning in a        express companies.
reformist direction, the ICC mounted the first ever




17
   Ibid., p. 204.
18
   Ibid., p. 205, and Kielbowicz, Postal Enterprise, p. 30.
19
   Fuller, p. 205.


U.S. Postal Service Office of Inspector General                                December 20, 2013
                                                              6
RARC-WP-14-004                                                              100 Years of Parcel Post



major investigation of the express companies. Although the companies hindered the
regulators by providing inaccurate and incomplete reports on their operations, the ICC
finally gathered enough information for a comprehensive report in 1912. 20

The ICC report was a sweeping indictment of an industry that had grown cavalier in its
treatment of customers and almost totally immune from marketplace discipline. The
express industry was found to have manipulated its incomprehensible rate structure to
overcharge and doublecharge many customers, sent goods by roundabout routes to
inflate charges, and discriminated among customers. The muckraking press attributed
all this to collusion. 21

Ignoring appearances, the express companies doubled down on high-handedness.
According to postal historian Fuller, the express companies “seemed to have a
compulsive urge to commit suicide. Under attack, they tended to become arrogant and
to pile abuse on abuse until at last they were completely at odds with the general
public.” 22 For example, oblivious to the spotlight of public scrutiny, Wells Fargo declared
a 300 percent dividend on invested capital from accumulated reserves for its
stockholders in 1910.

The Political Climate Finally Changes
In addition to alienating the public, by 1910 the express companies had lost much of
their political clout. Senator Platt withdrew and Senator Depew was defeated for
re-election in 1910. On the House side, Speaker Cannon was deposed even before the
1910 election put the Congress in progressive hands for the first time in the century. A
majority of the House signed a petition for hearings on Parcel Post legislation, and
within a month of Cannon’s ouster the first hearings were held, this time before a
committee of supporters. President Taft endorsed Parcel Post, and candidate Woodrow
Wilson did as well, pointing out the irony that Americans “have no parcels post until you
                                          reach the ports,... but you can’t have them inside
  A broad national debate                 the United States. Because — may I conjecture
  preceded the decision to launch         the reason — because there are certain express
  Parcel Post specifically to             companies which object.” 23
     compete against the private
     sector express companies.         Although the political tide was turning, the specific
                                       nature of a government parcel delivery enterprise
was very much up in the air following the 1910 election, and a lively intellectual contest
took place over the next two years. Thousands of high schoolers throughout the country
argued either the affirmative or the negative side of whether the Post Office should
inaugurate a “parcels post.” Professor Richard Kielbowicz provides a comprehensive



20
   Ibid., p. 221.
21
   Kielbowicz, Postal Enterprise, p. 29.
22
   Fuller, p. 221.
23
   Ibid., p. 219 and 224.


U.S. Postal Service Office of Inspector General                                 December 20, 2013
                                                  7
RARC-WP-14-004                                                                   100 Years of Parcel Post



analysis of the national debate that ultimately resulted in “arguably the deepest federal
thrust into public enterprise in the early 1900s.” 24

As Professor Kielbowicz describes it, the fundamental conflict was an ideological one.
On one side (“corporate liberalism”), with the tide of more than a century of progress
under capitalist and corporate development, was the home grown presumption that
government should be limited to support for, and if needed, some regulation to restrain
the harmful practices of big business. The other side leaned toward a more collectivist
vision of positive government initiative for the common good, and a tolerance for state
enterprise along lines found elsewhere in the world. 25

Corporate advocates argued that the express market would continue to thrive as a
private sector endeavor, and that judicious regulation could curb any excesses that
unfettered capitalism engendered. By 1911, however, this side was in retreat. Bringing
the express companies under the jurisdiction of the ICC had led to the revelation but not
correction of abuses by the railroads and their express off-shoots. A Postal Savings
Bank had been authorized, modestly addressing a market failure of the big banks,
another unpopular industry. Parcel Post seemed certain to be established in some form.
Opposition continued from interests aligned with established commercial distribution
channels — including well-placed country merchants and smaller newspapers that
depended on them for advertising. Their arguments tended toward the “slippery slope”
variety, warning that Parcel Post would be an opening for broader inroads into the
economy by government enterprise, and the beginning of the end of rural life as it was
then known.

As the debate progressed in Congress, two major divisions emerged over what form
Parcel Post would adopt. John A. Moon of Tennessee, chairman of the House Post
Office Committee, proposed using the postal clause of the Constitution to take over the
express companies by expropriation and have Parcel Post administered by the Post
Office as a government monopoly, just as letter mail was. With the support of the Postal
Progress League and drawing on the prevailing European model, this option was not as
radical as it might seem. The express companies had a relatively small capital
investment since the railroads provided most equipment and organization, explaining
why the express companies earned profits, in 1909
alone, amounting to 69 percent of their investment     Parcel Post legislation finally
in property and equipment. 26 Compensation for         passed in 1912. Even the
their investment would not be terribly expensive.      express companies preferred
                                                                 competition to a government
The option that emerged in the Senate under the                  takeover.
committee chairmanship of Jonathan Bourne of
Oregon was the alternative of government-sponsored competition as a means of
keeping the express companies honest, extending service to the areas they found


24
   Kielbowicz, “Government Goes into Business,” p. 150, fn. 2.
25
   Ibid., pp. 151-152
26
   Ibid., p. 167.


U.S. Postal Service Office of Inspector General                                      December 20, 2013
                                                         8
RARC-WP-14-004                                                                    100 Years of Parcel Post



unprofitable to serve, and moderating their rates. Bourne distrusted monopolies whether
by the government or the private sector.

Bourne’s vision was the one finally adopted as the 62nd Congress drew to a close,
supported even by the railroads and express companies (quietly, since they had been
widely discredited by the ICC and continued vilification from the national muckraking
press) who calculated that competition was less damaging to their business than
government takeover. The Parcel Post legislation was added as an amendment to the
postal appropriations bill after both major political parties had endorsed it in their
platforms, and signed into law by President Taft on August 24, 1912, to take effect on
January 1, 1913.

Parcel Post Had an Immediate Impact
As enacted, Parcel Post fell short of the dreams of its most ardent supporters for a flat
rate shipping system to anywhere in the country. In a concession to the opposition, the
weight limit was raised only to 11 pounds, the international minimum, and rates were
graduated by distance from the point of origin so that local merchants could ship their
goods more cheaply than the national mail order houses. But in a grant of executive
discretion that was unusual for the time, the law provided that rates, zones, and weight
limits could be adjusted by the Post Office with the agreement of the ICC, rather than by
cumbersome legislation.

Despite its early limitations, Parcel Post was an instant hit with the public and
businesses. On the first 5 days it was offered in 1913, more than 4 million packages
                                       were sent by an excited public through city Post
  Parcel Post was an immediate         Offices. In the first 6 months, the Post Office
  popular success.                     handled approximately 300 million parcels. 27
                                       Moreover, the Post Office proved able to handle
the flood adeptly, and several newspapers publicized comparative tests that showed
Parcel Post, notwithstanding its much lower price, provided faster service than the
express companies. President Taft’s outgoing Postmaster General proclaimed the
successful launch of Parcel Post “the greatest and most immediate ever scored by any
new venture in the country,” and recommended to his successor about to be appointed
by President Wilson that weight limits be raised and rates lowered to make the system
even more accessible. 28 Postmaster General Omar Burleson took these actions before
the year was out. 29 By 1920 the weight limit was 50 pounds to anywhere and 70 pounds
within three zones. 30




27
   National Postal Museum, “Precious Packages — America’s Parcel Post Service,”
http://www.postalmuseum.si.edu/exhibits/2b2f_parcel.html..
28
   Fuller, p. 229, and Kielbowicz, Postal Enterprise, p. 35.
29
   Kielbowiz, Postal Enterprise, p. 36.
30
   Fuller., p. 254.


U.S. Postal Service Office of Inspector General                                       December 20, 2013
                                                      9
RARC-WP-14-004                                                            100 Years of Parcel Post



A Profound Effect in the Longer Term
As had been foretold by its critics, Parcel Post had a profound effect on rural culture.
Postal historian Wayne Fuller wrote, “The decline of the old general store began the day
parcel post went into effect.”31 Parcel Post opened up a national marketplace for mail
order goods, and customers gained access to a
much broader variety of high quality merchandise.         Parcel Post opened up a
Sears, Roebuck took the greatest advantage,               national marketplace for mail
shipping five times its 1912 volume in 1913, and in       order goods.
5 years tripling its 1912 revenue. Montgomery Ward
tripled its revenues from 1913 to 1920. By that year, on average, 17 packages were
delivered by Parcel Post to every rural address, about one every 3 weeks. 32 When
weight limits were raised to 70 pounds in 1920, Parcel Post also became a favored
option for in-town deliveries by city stores.

Parcel Post also transformed the transportation market, though not entirely as foreseen
by opponents. To be sure, the express companies proved unwilling or unable to survive
in a competitive market where their oligopolistic business practices hindered adaptation.
By February 1913 the value of their securities had dropped by $32 million. Within a year
                                   they stopped shipping to many small towns. When
  The express companies failed     the government took over railroad operations during
  to adapt to competition and      World War I, the express companies gave up even
  eventually went bankrupt.        the appearance of competition and consolidated into
                                   the American Railway Express Company, which
finally went bankrupt as the Railway Express Agency in 1975. 33 New companies
emerged, such as United Parcel Service (UPS) and Federal Express, with adaptable
and successful business models that served primarily large commercial shippers and
businesses shipping to each other and to households, eventually dominating all but the
single-package market.

While the decline of rail transportation and growth of both road and air transportation
played a role in the relative decline of Parcel Post in the package delivery market from
its early years, Congress too undermined its competitive vigor. Congress required the
Post Office to go through the ICC to adjust rates, zones, and weights, a cumbersome
process. In large part to protect the interests of private carriers, including the Railway
Express Agency, and to fix below-cost rates, Congress also raised the rates on its own
or required rate increases in 1928, 1948, 1950, and 1958, combined with a legislated
reduction in weight limits, each time with negative effects on volume and investments
needed to keep Parcel Post competitive. 34 In 1966 Congress reversed course again and
raised weight limits back to 70 pounds, but by then the damage had been done. The
author of the corporate history of UPS asserts that “United Parcel Service rates were
lower than the U.S. Post Office Department in all categories. This was the case despite
31
   Ibid., p. 257.
32
   Ibid., pp. 252 and 254.
33
   Kielbowicz, Postal Enterprise, p. 36.
34
   Ibid., pp. 37-38, 64-65.


U.S. Postal Service Office of Inspector General                               December 20, 2013
                                                  10
RARC-WP-14-004                                                                                100 Years of Parcel Post



the fact that government’s parcel post was running at a loss and needed to subsidize
package delivery to keep the rates as low as they were.” 35

Postal Package Services 100 Years Later
The Parcel Post of 1913 has evolved into a diverse set of package delivery services that
are integral to the Nation’s lifestyle and commerce. These services include Priority Mail
packages, including flat rate boxes, Parcel Select,
Media Mail, and Bound Printed Matter in addition to        Parcel Post has evolved into
the direct descendent of Parcel Post, now offered as       a diverse set of package
Standard Post. Also, with the flexibility offered by       delivery services that are
                                                           integral to the Nation’s
the Postal Accountability and Enhancement Act of
                                                           lifestyle and commerce.
2006, pricing for most parcels as competitive
products is responsive to costs and market
conditions, and can be tailored to specific mailer characteristics through Negotiated
Service Agreements. These products now are mainstays of postal shipping and
package operations, which are the primary areas of growth in Postal Service volume
and revenue. The importance of these outgrowths of Parcel Post is seen in the
commitment to continue to provide Saturday delivery for packages even if letter mail
becomes a 5-day delivery product. It is particularly evident in the emphasis on
maintaining 6-day delivery of medicines and other time sensitive packages. It not only
provides a competitive advantage to the Postal Service, but also recognizes the crucial
role the low cost universal delivery of parcels provides to the economy and well-being of
individual citizens.

The current Postal Service shipping and package delivery products are important to
many businesses just as Parcel Post was to Sears and Montgomery Ward in the years
after its introduction. Large business mailers shipping to households utilize Parcel
Select, under which private-sector consolidators handle shipments to Postal Service
facilities for final delivery. Small businesses as well as individuals often use end-to-end
Priority Mail service, which accounted for 873 million pieces in fiscal year (FY) 2013. 36
As sales through the Internet grow, the availability of these shipping alternatives is
becoming more central to the national economy.

The direct descendent of the 1913 breakthrough product, single-piece Standard Post,
now represents only a minor share of the package delivery marketplace both within the
Postal Service and in the package delivery industry as a whole. By volume, in FY 2010,
the single-piece market share for Parcel Post was 17.6 percent of the ground package
retail market for individuals and small businesses, and only 1.1 percent of the broader
ground package market. 37 The 71 million packages sent in FY 2012 were about

35
   Niemann, pp. 108-109.
36
   U.S. Postal Service, Final Revenue, Pieces, and Weight, Fiscal Year 2013, http://about.usps.com/who-we-
are/financials/revenue-pieces-weight-reports/fy2013.pdf.
37
   Postal Regulatory Commission Order No. 1411, “Order Conditionally Granting Request to Transfer Parcel Post to
the Competitive Product List,” Docket No. MC2012-13, July 19, 2012,
http://www.prc.gov/Docs/83/83756/Order_No_1411.pdf, p. 5.


U.S. Postal Service Office of Inspector General                                                   December 20, 2013
                                                       11
RARC-WP-14-004                                                                               100 Years of Parcel Post



1.1 percent more than in FY 2011. 38 Moreover, the attributable costs for handling these
packages exceeded revenues.

These key numbers were determinative in the Postal Service’s request to transfer
single-piece Parcel Post from the list of dominant products to the list of competitive
products. The request was unopposed, and eventually granted by the Postal Regulatory
Commission (PRC) on July 19, 2012, conditional on a “competitive price adjustment”
that will prevent subsidizing the service by revenues from monopoly products and
permit the product to make a positive contribution to institutional costs. (Alaska Bypass
Mail was retained as a market dominant product.)

On January 27, 2013, the Postal Service dropped the Parcel Post brand name
altogether, renaming the service Standard Post. Standard Post is available only at the
                                     retail counter of Post Offices, with the obvious
 Parcel Post is now Standard         intention of limiting it to non-commercial users of the
 Post, a competitive product
                                     mail. Coinciding with the name change was a price
 aimed at non-commercial
 users.
                                     increase of 21 percent. While Priority Mail is a lower
                                     cost alternative to Standard Post for some small
                                     packages and short shipping distances, Standard
Post still provides the lowest cost option for individual heavier weight packages or those
going long distances to rural locations. Thus it remains an essential shipping option for
many price-conscious people.

Does the Country Still Need Parcel Service by the
Postal Service?
The presence of strong parcel competition by thriving commercial carriers and the
relatively small size of the single-piece market may logically raise the question whether
there still exists a need for the Postal Service to provide parcel options beyond last-mile
delivery. Privatization is the course several European nations have pursued, and it has
always had a certain appeal in this country among those who think that the private
sector is inherently more efficient than government. History provides some
perspectives, however, that should be borne in mind with regard to the Postal Service’s
involvement in package delivery.

First, it should be remembered that Parcel Post was instituted precisely to correct the
market-distorting effects of a lack of competition in package delivery that existed a
century ago, and that it succeeded decisively where regulation alone had failed. Since
the withdrawal of DHL from the North American market in 2008, package delivery has
been overwhelmingly concentrated in a commercial duopoly plus the Postal Service.
Although the government has more powerful tools to combat corporate collusion and
predatory behavior than it had in 1913, competition has proven its effectiveness as a
brake on commercial exploitation. Moreover, the parcel delivery market is changing

38
  U.S. Postal Service, Final Revenue, Pieces, and Weight, Fiscal Year 2012, http://about.usps.com/who-we-
are/financials/revenue-pieces-weight-reports/fy2012.pdf.


U.S. Postal Service Office of Inspector General                                                  December 20, 2013
                                                       12
RARC-WP-14-004                                                                                   100 Years of Parcel Post



because of the rapid growth of e-commerce. As a result, it could enter a period of
reorganization and change. In this environment, the need to foster and maintain
competition may become more important to ensure that efficient market forces rather
than other factors such as market concentration determine winners and losers. Even if
market concentration does not become a problem, the possibility of a nationwide strike,
like the one that shut UPS down in 1997, should point to the value of a public sector
alternative from package acceptance to delivery.

Second, despite the dominance of large commercial shippers in the parcel market, the
Postal Service continues to be the only provider of universal service to out-of-the-way
areas at prices without surcharges. Although they
no longer constitute a majority of the country as            Only the Postal Service
was true 100 years ago, millions of residents of             delivers to all areas of the
rural areas with limited retail outlets still depend on      country at a uniform price.
the ubiquity of the Postal Service for sending and
receiving packages. The Postal Service’s need to deliver at rates without surcharges to
isolated areas as well as its past inability to offer individual discounts to large customers
have always provided part of the explanation for the loss of market share to UPS and
FedEx over the years on the less costly business and urban routes. While it is true that
UPS and FedEx claim to cover the whole country, they do not do so at the same rates
they reserve for large shippers and concentrated locations. According to the Parcel
Shippers Association, the Postal Service’s competitors apply costly surcharges to more
than 23,000 rural and suburban ZIP Codes (ranging from $1.70 to $2.75 per package)
and to residential deliveries (UPS charges $2.20, FedEx $2.50), not to mention “remote
area” surcharges ranging from $6 to $11 in Hawaii and $15 to $30 in Alaska. 39

Given the Postal Service’s economy of scope over the “last mile” of delivery to every
address in America, there should be little surprise that both of its competitors are in fact
customers for this service. The Postal Service delivers more than 400 million parcels for
UPS and FedEx annually. 40 FedEx Ground, for example, turned over more than
35 percent of its total volume to the Postal Service for final delivery at the beginning of
2013. 41 The existence of worksharing arrangements like the Parcel Select category
provides a third reason why the Postal Service should not abandon its own parcel
delivery products. All of these products help sustain the daily trip by the letter carrier.
Particularly as letter and periodical mail have declined, parcel products are becoming a
new “anchor” of delivery. Over the years a most efficient service mechanism has
evolved which allows each type of organization to focus on what it does best — the
private sector on upstream consolidation and transportation, the Postal Service on
universal service and the last mile of delivery. The government-run postal system


39
   “Parcel Shippers Association Comments on the United States Postal Service Request to Transfer Commercial
Standard Mail Fulfillment Parcels to the Competitive Product List,” Postal Regulatory Commission Docket No.
MC2010-36, September 24, 2010, http://www.prc.gov/Docs/70/70299/PSA%20TRANSFER%20COMMENTS.pdf,
pp. 9 and 13-16.
40
   U.S. Postal Service, Postal Facts 2013, http://about.usps.com/who-we-are/postal-facts/postalfacts2013.pdf, p. 12.
41
   Alan Robinson, “USPS Delivered a Record Share of FedEx Ground Shipments,” Courier Express and Postal
Observer, March 20, 2013, http://cepobserver.com/tag/fedex-ground/.


U.S. Postal Service Office of Inspector General                                                      December 20, 2013
                                                         13
RARC-WP-14-004                                                                               100 Years of Parcel Post



shares the primary national interest in maintaining the most efficient delivery
mechanism and not just the best return on equity.

Finally, it is worth considering that package shipping is the most significant postal
product that is growing rather than shrinking in volume and revenues. Driven by the
                                       continued growth both in e-commerce and in
  Package shipping is the most         workshare arrangements, total shipping and
  significant postal product           package revenues increased by 8.0 percent in
  that is growing rather than          FY 2013 to $12.5 billion, and overall volume was up
  shrinking.                           6.0 percent to 3.7 billion pieces. 42 The increase was
                                       led by Parcel Select and First-Class packages. The
placement of Standard Post as a competitive product means that it can be managed
with much more flexibility than has been the case during the past century as Parcel
Post.

Lessons for the Future
Beyond the parcel market, the 100-year history of Parcel Post offers some valuable
lessons for future postal services. Parcel Post was a widespread success in 1913
because it made use of the unique infrastructure advantages of the Post Office network
to offer services that were strongly desired by citizens and businesses. The Post Office
Department was already sending wagons to deliver mail in rural areas. Adding
packages was such an obvious step that many rural carriers undertook it on their own,
picking up and delivering parcels for a small fee. When Parcel Post was finally
implemented, its effects were transformational. The mail-order business was galvanized
by the presence of better shipping options, and new ways of buying and selling goods
changed rural life and culture. Over time, however, the Postal Service gradually lost
much of its parcel business to more nimble competitors as it was unable to adapt to
changing circumstances.

Today, there may be new opportunities for the Postal Service to use its existing
infrastructure to provide services for citizens and businesses, especially as e-commerce
continues to grow. If these services use the Postal Service’s unique capacities to meet
extensive needs that other providers cannot, they could prove as transformational as
Parcel Post. As with Parcel Post, though, infrastructure advantages do not necessarily
guarantee long-term success. The agility to adapt as circumstances change is also
critical for success.




42
  U.S. Postal Service, 2013 Report on Form 10-K, http://about.usps.com/who-we-are/financials/10k-
reports/fy2013.pdf, p. 25.


U.S. Postal Service Office of Inspector General                                                     December 20, 2013
                                                       14
RARC-WP-14-004                                                                        100 Years of Parcel Post




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                           December 20, 2013
